Case: 19-20175

Document: 00515791397

Page: 1

Date Filed: 03/23/2021

CourtuMIppeafe
for tfie Jfiftt) Circuit
No. 19-20175

Calvin Jarrod Hester,
Plaintiff—Appellant,
versus
FolashadeItuah,
Defendant—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-197

ON PETITION FOR REHEARING EN BANC
(Opinion 2/5/21, 5 ClR.,

F.3d

)

Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:
(

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No
member of the panel nor judge in regular active service of the court
having requested that the court be polled on Rehearing En Banc

\

Case: 19-20175

Document: 00515791397

Page: 2

Date Filed: 03/23/2021

No. 19-20175

(Fed. R. App. P. and 5th Cir. R. 35), the Petition for Rehearing
En Banc is DENIED.
( )

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. and 5™
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

2

Case: 19-20175

Document: 00515769068

Page: 1

Date Filed: 03/08/2021

tHmteti States Court oFUIppealsi
for tl)c Jfiftfj Circuit

United States Court of Appeals
Fifth Circuit

FILED
February 5, 2021
No. 19-20175
Summary Calendar

Lyle W. Cayce
Clerk

Calvin Jarrod Hester,
Plaintiff—Appellant,
versus
Folashade Ituah,
Defendant—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-197

Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:*
Calvin Jarrod Hester, Texas prisoner # 1472075, filed this 42 U.S.C.
§ 1983 action against Folashade Ituah, the kitchen second shift supervisor at
the Darrington Unit, for gross negligence and willful intent to include pork in
his meal without notification in violation of his First and Eighth Amendment

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 19-20175

Document: 00515769068

Page: 2

Date Filed: 03/08/2021

•No=49=20175.
rights as a Muslim. The district court dismissed Hester’s complaint as
frivolous under 28 U.S.C. § 1915(e)(2)(B). The district court denied
Hester’s motion to proceed in forma pauperis on appeal, certifying that his
appeal was not taken in good faith. See § 1915(a)(3). We granted in forma
pauperis status, stating that there was “an arguable issue as to whether the
district court ought to have granted the motion to amend, or, alternatively,
whether the district court should have dismissed without prejudice to an
amended complaint.” However, we expressed “no view on the ultimate
merits of Hester’s appeal.”
Hester argues that the defendant’s actions in willfully and
intentionally serving him a meal with pork deprived him of his First and
Eighth Amendment rights and caused him to violate a major tenet of his faith.
Hester is not complaining of a prison regulation, limitation, program or
practice that improperly restricts his right to the free exercise of his religion.
To the contrary, Hester’s allegations demonstrate that the prison has in place
a program or practice to accommodate the dietary requests of its Islamic
inmates which provides for non-pork meals and notification when a meal
contains pork. Hester’s claim concerns an alleged failure of a prison
employee to provide a pork-free meal on one occasion. An isolated incident
of the denial of a religiously-compliant meal on one occasion is not sufficient
to state a constitutional claim. See Randall v. McLeod, No. 95-10106, 68 F.3d
470, at *2-4 (5th Cir. Sept. 15,1995) (affirming the dismissal of a prisoner’s
free exercise claim as frivolous where the prisoner alleged the denial of
“pork-free” meals on “two isolated incidents” during a prison lock down).1

1 Unpublished cases decided before January 1996 are binding precedent. 5th
Circuit Rule 47.5.3.

2

Case: 19-20175

Document: 00515769068

Page: 3

Date Filed: 03/08/2021

No. 19-20175

Hester argues that the district court abused its discretion in denying
his motions to amend his complaint because Ituah had already appeared
before the court. He states that he sought to present additional facts and
defendants as the facts were being developed. Hester does not elaborate on
these additional facts or defendants which he sought to present in his
proposed amended complaints.
Hester’s proposed amendments were not made for the purpose of
supplementing his allegations against Ituah in order to overcome deficiencies
in his allegations. He has not identified what additional allegations he would
have made against Ituah that would have been sufficient to state a claim if he
had been given the opportunity to file an amended complaint. See Brewster v.
Dretke, 587 F.3d 764, 768 (5th Cir. 2009); Eason v. Thaler, 14 F.3d 8, 9 (5th
Cir. 1994). Therefore, the record does not support any argument that the
district court abused its discretion by dismissing Hester’s complaint against
Ituah without allowing him to amend it. See Brewster, 587 F.3d at 768; Eason,
14 F.3d at 9.
The district court did not abuse its discretion in dismissing Hester’s
complaint as it did not state a claim. See Geiger, 404 F.3d at 373. We
therefore AFFIRM the judgment of the district court. All outstanding
motions are DENIED.

3

Case 4:18-cv-00197 Document 35 Filed on 03/06/19 in TXSD Page 1 of 1

Southern District of Texas

SOUTHERN DISTRICT 0^g|f2E°9

United States District Court

Dovid J. Bradley, Clerk

Calvin Jarrod Hester,
Plaintiff,
versus
Folashade Ituah,
Defendant.

§
§
§
§
§
§
§
§

Civil Action H-i 8-0197

Final Judgment
Calvin Jarrod Hester’s complaint is dismissed with prejudice as frivolous.
closed. The clerk’s office will send a copy of this order to the parties.

Signed at Houston, Texas, on

., 2.019.

Lynn N. Hughes \J
United States District Judge

'{

;

i

i

The case is

I Initorl Statue nigtrirt Court

—Soutbeffl-DistcicLof Texas_

United States District Court

SOUTHERN DISTRICT
David J. Bradley, Clerk

Calvin Jarrod Hester,

§
§
§
§
§
§
§
§

Plaintiff,
versus
Folashade Ituah,
Defendant.

Civil Action H'18'0197

Order Dismissing Complaint
Calvin Jarrod Hester says that the defendant, Folashade Ituah, served a meal to him that
contained pork. Hester says that his Islamic faith does not allow him to eat pork. After eating the
meal, Hester says that he became ill.

Hester says that Ituah served him pork on purpose in

violation of his religious beliefs and of the prison system’s policy for pork-free diet restrictions for
religious reasons.
Hester’s complains of one incident of food poisoning from the pork Ituah served. Incidents
of food poisoning and a mere failure to follow prison system policy does not amount to a
constitutional violation. Further, Ituah serving pork to Hester in one instance does not violate his
constitutional right to the exercise of his Islamic faith.
Accordingly, the complaint is dismissed with prejudice as frivolous according to
§ 1915(e) (2) (B). This will count as a strike against Hester and the clerk’s office is ordered to send
a copy of this order to the manager of the three strikes list for this district.
Signed at Houston, Texas, on

A7

C?

., 2.019.

Lynn N. Hughes
United States District Judge

